<html>
<title> - OVERSIGHT HEARING ON THE PROPOSED WORLD HERITAGE COMMITTEE POLICY PROHIBITING MINING IN AREAS SURROUNDING WORLD HERITAGE SITES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
   OVERSIGHT HEARING ON THE PROPOSED WORLD HERITAGE COMMITTEE POLICY 
      PROHIBITING MINING IN AREAS SURROUNDING WORLD HERITAGE SITES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         SUBCOMMITTEE ON ENERGY
                         AND MINERAL RESOURCES

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                   OCTOBER 28, 1999, WASHINGTON, DC.

                               __________

                           Serial No. 106-80

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-727 <l-ar/r-ar>          WASHINGTON : 1999




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

              Subcommittee on Energy and Mineral Resources

                    BARBARA CUBIN, Wyoming, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   NICK J. RAHALL II, West Virginia
CHRIS CANNON, Utah                   ENI F.H. FALEOMAVAEGA, American 
KEVIN BRADY, Texas                       Samoa
BOB SCHAFFER, Colorado               SOLOMON P. ORTIZ, Texas
JIM GIBBONS, Nevada                  CALVIN M. DOOLEY, California
GREG WALDEN, Oregon                  PATRICK J. KENNEDY, Rhode Island
THOMAS G. TANCREDO, Colorado         CHRIS JOHN, Louisiana
                                     JAY INSLEE, Washington
                    Bill Condit, Professional Staff
                     Mike Henry, Professional Staff
                  Deborah Lanzone, Professional Staff
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held October 28, 1999....................................     1

Statement of Members:
    Chenoweth-Hage, Hon. Helen, a Representative in Congress From 
      the State of Idaho.........................................     7
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming...........................................     1
        Prepared Statment of.....................................     3
    Underwood, Hon. Robert A., a Delegate in Congress from the 
      Territory of Guam..........................................     4
        Prepared Statment of.....................................     6

Statement of Witnesses:
    Barry, Honorable Don, Assistant Secretary of Interior for 
      Fish and Wildlife and Parks, U.S. Department of the 
      Interior...................................................    45
        Prepared Statement of....................................    48
    Lawson, General Richard L., President, National Mining 
      Association................................................    56
        Prepared Statment of.....................................    58
    Phillips, Adrian, Chair, World Commission on Protected Areas 
      (IUCN), Evesham, United Kingdom............................     8
        Prepared Statement of....................................    11
    Wallop, Honorable Malcolm, Chairman, Frontiers of Freedom 
      Institute..................................................    51
        Prepared Statment of.....................................    53

Additional Material Supplied:
    Agenda:......................................................    81
    Briefing Paper:..............................................    82



   OVERSIGHT HEARING ON THE PROPOSED WORLD HERITAGE COMMITTEE POLICY 
      PROHIBITING MINING IN AREAS SURROUNDING WORLD HERITAGE SITES

                              ---------- 

                       House of Representatives,

                     Subcommittee on Energy
                             and Mineral Resources,
                                    Committee on Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:23 p.m. In 
Room 1334, Rayburn House Office Building, Hon. Barbara Cubin 
[chairman of the subcommittee] Presiding.

   STATEMENT OF THE HON. BARBARA CUBIN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Cubin. The Subcommittee on Energy and Mineral 
Resources will come to order.
    The subcommittee meets today in its oversight capacity to 
review a draft policy announced at the 23rd annual meeting of 
the United Nations Educational, Scientific, and Cultural 
Organizations Bureau of the World Heritage Committee last year 
in July.
    This policy proposes to ban mining in areas around World 
Heritage sites. I understand that it has been placed on the 
agenda for consideration by the World Heritage Committee at its 
next meeting in early December in Marrakesh, Morocco. As used 
in this proposal, the term ``mining'' describes all forms of 
mineral, salt, and hydrocarbon extraction. The policy forbids 
mining in land classified as International Union for the 
Conservation of Nature-protected area management Categories I 
through IV, and states that in Categories V through VI 
exploration, minimal and localized extraction is acceptable 
only where this is compatible with the objectives of that 
protected area.
    I have no idea how to determine in which of these 
categories any given area is located, nor do I know how one 
determines how a particular property in the United States is 
classified under this system. This policy has not been 
discussed with Congress. I have never heard of the IUCN, nor 
the World Commission on Protected Areas. Who are these groups 
and who has a voice in determining the policies they endorse?
    Congress has the constitutional role, Article 4, section 3, 
clause 2, in the making of rules and regulations governing 
lands belonging to the United States. Congress is accountable 
to the people.
    I am concerned about the World Heritage Committee's 
interference with Congress' exercise of its constitutional 
responsibilities to govern lands owned by the United States. 
Ordinary citizens have no choice in making a policy that may 
well affect them and their communities. The unelected 
bureaucrats on the World Heritage Committee have no 
accountability to the American people, the ultimate sovereign 
authority in our system of government. People who must satisfy 
the concerns of outsiders before they act are not sovereign. I 
believe decisions addressed in the mining policy are purely 
domestic matters and would like to know why this policy is 
being considered as a part of an international agreement 
without consulting American citizens or our domestic mineral 
business industries.
    At a minimum, adoption of this policy will complicate 
mineral development in the United States since there are 67 
World Heritage sites and biosphere reserves in the United 
States. At worst, the policy becomes a treaty provision that 
can be used by those opposed to learning to stop development of 
U.S. mines located near these sites.
    I also fear the executive branch will invoke this policy as 
part of an international agreement in an attempt to 
administratively achieve an action within the jurisdiction of 
Congress but without consulting Congress. International 
commitments must not interfere with the American system of 
government by denying American citizens participation in the 
legislative and rulemaking process. A treaty should not be used 
to change domestic law in a way that has not been approved by 
Congress.
    Today's hearing will focus on the role of the United States 
Government in advocating the ban on mining around World 
Heritage sites. We are particularly interested in gaining 
insights in the following areas: (1) the role the U.S. 
Government played in drafting the mining policy; (2) the reason 
Congress was not informed of a policy that is clearly within an 
area of its constitutional responsibility; (3) why American 
mineral extraction companies were not consulted about the 
proposed policy; and (4) the reason that the American people 
were not included in the process of developing a policy that 
clearly affects them.
    I am sorry that the State Department declined to 
participate in this oversight function of the U.S. Congress. On 
October 8, 1999, my subcommittee faxed a letter to the State 
Department, officially inviting them to testify at this 
hearing. Amazingly, 3 days before the October 28 hearing, my 
staff was called by the State Department and informed that they 
were unable to provide a witness at this hearing. The reason 
given was that they had only one employee intimately involved 
with the hearing topic and he was travelling abroad.
    I have to point out that the State Department has 25,067 
employees of which only one, who has been employed by the State 
Department less than a year, is the only expert in this area on 
such a matter of huge importance to the United States. Let me 
point out that 17 of Wyoming's 22 counties have fewer people 
than the State Department has employees. Needless to say, I am 
astonished that given this vast pool of talented employees, 
only one person had sufficient knowledge to testify about this 
important issue.
    I now recognize our ranking member, the gentleman from 
Guam, Mr. Underwood, for any statement that he might have.
    [The prepared statement of Mrs. Cubin follows:]

  Statement of the Honorable Barbara Cubin Chairman, Subcommittee on 
                       Energy & Mineral Resources

Oversight Hearing on the ``The Proposed World Heritage 
Committee PolicyProhibiting Mining in Areas Surrounding World 
Heritage Sites''
October 28, 1999
    The Subcommittee meets today in its oversight capacity to 
review a draft policy announced at the 23rd annual meeting of 
the United Nations Educational, Scientific and Cultural 
Organization's (UNESCO) Bureau of the World Heritage Committee 
(the Bureau) in Paris last July. This policy proposes to ban 
mining in areas surrounding World Heritage Sites. I understand 
that it has been placed on the agenda for consideration by the 
World Heritage Committee at its next meeting in early December 
in Marrakech, Morocco. As used in this proposal, the term 
``mining'' describes all forms of mineral, salt and hydrocarbon 
extraction.
    The policy prohibits mining in land classified as 
International Union for the Conservation of Nature JUCN) 
Protected Area Management Categories I-IV and states that in 
Categories V and VI, ``exploration and minimal and localized 
extraction is acceptable only where this is compatible with the 
objectives of the protected area. . .'' I have no idea how to 
determine in which of these categories any given area is 
located. Nor do I know how one determines howw a particular 
property in the United States is classified under this system.
    This policy has not been discussed with Congress. I have 
never heard of the IUCN or the or the World Commission on 
Protected Areas. Who are these groups and who has a voice In 
determining the policies they endorse? Congress has the 
Constitutional role (Article IV, Section 3, Clause 2) in the 
making of rules and regulations governing lands belonging to 
the United States. Congress is accountable to the people. I am 
concerned about the World Heritage Committee's interference 
with Congress' exercise of its constitutional responsibility to 
govern lands owned by the United States.
    Ordinary citizens had no voice in making a policy that may 
well affect them and their communities. The unelected 
bureaucrats on the World Heritage Committee have no 
accountability to the American people, the ultimate sovereign 
authority in our system of government. A people who must 
satisfy the concerns of outsiders before they act are not 
sovereign. I believe decisions addressed in the mining policy 
are purely domestic matters and would like to know why this 
policy is being considered as part of an international 
agreement without consulting American citizens or our domestic 
mining industry.
    At a minimum, adoption of this policy will complicate 
mineral development in the United States since there are 67 
World Heritage Sites and Biosphere Reserves in the U.S. At 
worst, the policy becomes a treaty provision that can be used 
by those opposed to mining to stop development of U.S. mines 
located near these sites.
    I also fear the Executive Branch will invoke this policy as 
part of an international agreement in an attempt to 
administratively achieve an action within the jurisdiction of 
Congress, but without consulting Congress. International 
commitments must not interfere with the American system of 
government by denying American citizens participation in the 
legislative and rule-making process. A treaty should not be 
used to change domestic law in a way that has not been approved 
by Congress.
    Today's hearing will focus on the role of the U.S. 
Government in advocating the ban on mining around World 
Heritage Sites. We are particularly interested in gaining 
insights in the following areas: (1) the role the U.S. 
Government played in drafting the mining policy, (2) the reason 
Congress wasn't informed of a policy that is clearly within an 
area of its Constitutional responsibility, (3) why American 
mineral extraction companies weren't consulted about the 
proposed policy, (4) the reason the American people were not 
included in the process of developing a policy that clearly 
affects them.
    I am sorry that the State Department declined to 
participate in this oversight function of the U.S. Congress. On 
October 8, 1999 my subcommittee faxed a letter to the State 
Department officially inviting them to testify at this hearing. 
Amazingly, three days before the October 28 hearing my staff 
was called by the State Department and informed that they were 
unable to provide a witness at this hearing. The reason given 
was that the only employee intimately involved with the hearing 
topic was traveling abroad. I might add that this employee has 
been at State for less than a year. According to the Office of 
Personnel Management's May 1999 statistics, the State 
Department has 25,067 employees of which 8,940 are located in 
the United States. Let me point out that 17 of Wyoming's 22 
counties have less people than the State Department has 
employees. Needless to say, I am astonished that given this 
vast pool of talented employees, only one person had sufficient 
knowledge to testify about this important issue.
    I now recognize our Ranking Member, the gentleman from 
Guam, Mr. Underwood.

   STATEMENT OF THE HON. ROBERT A. UNDERWOOD, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Mr. Underwood. Thank you, Madam Chairman. I am pleased to 
welcome our esteemed witnesses to the subcommittee today to 
discuss the draft World Heritage Committee policy regarding 
mining in areas surrounding World Heritage sites.
    First, let me note, for the record, that the subject 
document this hearing was called to address has been 
inaccurately described as a ``proposed policy banning mining'' 
in areas surrounding World Heritage sites. The draft policy 
which we will discuss today is a planning document that sets 
out guidelines and recommendations toward mining in adjacent 
and protected areas such as national parks. It does not propose 
a ban on mining around national parks and other protected 
areas.
    This draft document evolved out of the United States 
participation in the World Heritage Convention which was 
established to recognize natural and cultural sites of 
outstanding value around the world. Since last year, a small 
and informal group of this organization has met periodically to 
discuss ways to reconcile environment and development needs and 
to provide guidance on World Heritage sites whose integrity may 
be threatened by potential mining projects. The ``draft policy 
on mining and protected areas'' document that we are here to 
discuss is the result of these discussions.
    The World Conservation Union draft policy provides a global 
framework statement that recognizes that clear rules are easier 
to understand and defend than ones which depend on too much 
interpretation. As the draft policy notes, while they have 
provided clear guidance in the draft statement, they leave it 
to individual countries to consider whether adaptations are 
needed in local circumstances, and indeed, countries may decide 
to ignore any recommendations at all.
    Their draft policy defines their position towards mining 
and associated activities in and adjacent to protected areas. 
It does not and indeed cannot ban mining in areas surrounding 
World Heritage sites. Any action that the United States might 
choose to take as a result of this draft mining policy would be 
taken at our initiative, locally, within the country and within 
our constitutional processes and under our own system of 
jurisprudence.
    In conclusion, while I welcome the opportunity to review 
the World Heritage Convention's thoughts on how mining affects 
our national parks and other protected areas, it is clear that 
any policy this organization may adopt will not supplant or 
replace our own laws.
    As the National Academy of Sciences recently noted in its 
report on the adequacy of Federal surface management 
regulations, mining inevitably affects other resources in the 
areas in which it occurs. The consequences of this activity can 
to some extent be mitigated through a balanced and reasonable 
approach that includes planning, compliance with legal and 
regulatory requirements, and an appreciation of the potentially 
competing interests of the environment, production of metal and 
minerals for the society, and employment. The draft policy 
before us today seems to be consistent with this sound approach 
and should be seen as reassuring rather than alarming.
    I look forward to hearing the testimony of our witnesses.
    I would like to add as well, Madam Chairwoman, I do 
associate myself with the remarks regarding the State 
Department's lack of participation in this hearing.
    Thank you.
    [The prepared statement of Mr. Underwood follows:]
    [GRAPHIC] [TIFF OMITTED] T6727.001
    
    Mrs. Cubin. Thank you, Mr. Underwood.
    I would like to welcome Representative Helen Chenoweth-Hage 
of Idaho, chairman of our committee's Forest and Forest Health 
Subcommittee and ask unanimous consent that she be permitted to 
participate in our hearing today. Moreover, because she 
recently attended a World Heritage Committee meeting in Paris, 
I understand that she would like to make an opening statement 
regarding her participation at the Paris meeting.
    Without objection, the gentlewoman is recognized.

STATEMENT OF THE HON. HELEN CHENOWETH-HAGE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mrs. Chenoweth-Hage. I thank the chairman for allowing me 
the privilege to participate in today's meeting.
    During my tenure in Congress, I have been very involved in 
the development of the American Land Sovereignty Protection Act 
which requires strong congressional oversight of the United 
Nations designations such as biosphere reserves and the World 
Heritage sites. Right now we don't have that kind of oversight.
    Congress' concern on this issue largely arose from the 
Clinton-Gore administration's using the Yellowstone National 
Park's World Heritage site status as a political weapon to stop 
gold mining on private property outside the park. American 
taxpayers paid an astounding $64 million to a Canadian 
leasehold mining company to stop this mine.
    Because of my interest and learning more about using World 
Heritage site designations as a political tool, I attended the 
World Heritage Committee's meeting at UNESCO's headquarters in 
Paris last July. That meeting was entirely devoted to the 
attempt by international and environmental groups to stop 
construction of a uranium mine in Australia adjacent to the 
Kakadu National Park. It defied the imagination how mining 
opponents, after exhausting all of their administrative and 
legal remedies in Australia, were given standing before the 
World Heritage Committee to make their case to stop the mine.
    Several days before I arrived at the Paris meeting, 
UNESCO's World Heritage Committee briefly discussed the World 
Commission on Protected Area's position paper on mining and 
associated activities in relation to protected areas. After 
spending the last several weeks devoted to stopping the 
Clinton-Gore plan to stop development and access to 40 million 
acres of American's national forests, I am astounded that an 
organization of unelected international academics and 
bureaucrats has drafted a document setting guidelines for 
mining on private and public lands in the United States.
    Madam Chairman, I hope today's hearing helps answer some of 
the questions that you have expressed, such as what has been 
the role of the United States Government in drafting this 
mining policy; and in addition to that, what American mining 
companies, large and small, have been consulted about this 
mining policy. And further, how much money does the United 
States Government transfer to the International Union for the 
Conservation of Nature, IUCN, which oversees the World 
Commission on Protected Areas, and finally what assurance can 
Assistant Secretary Barry give us in the subcommittee that the 
Pittman-Robertson Federal aid to wildlife slush funds have not 
been used for foreign travel or other expenses associated with 
this mining policy statement.
    Miners in Idaho are already overwhelmed by the Clinton-Gore 
administration's strong antimining policies and all of the 
meetings and public comment periods associated with them. How 
can this Congress subject them now to the whim of a World 
Heritage Committee that is dominated by unelected people from 
outside the United States?
    Thank you, Madam Chairman, for allowing me to sit in on 
this hearing.
    Mrs. Cubin. Thank you. I will now introduce the witnesses 
for today's hearing.
    Our first witness will testify by way of video conference 
from the United Kingdom. I would like to welcome Mr. Adrian 
Phillips, Chair of the World Commission on Protected Areas of 
the IUCN.
    Our second witness is the Honorable Don Barry, Assistant 
Secretary of the Interior for Fish and Wildlife and Parks of 
the U.S. Department of the Interior; followed by the Honorable 
Malcolm Wallop, chairman of the Frontiers of Freedom Institute; 
and General Richard L. Lawson, Chairman of the National Mining 
Association.
    Let me remind the witnesses that they must limit their oral 
statements to 5 minutes, but that their entire statements will 
appear in the record. We will allow the entire panel to testify 
before questioning the witnesses.
    Also, let me mention that these hearings are now broadcast 
live over the Internet. And there are on an off switches on the 
microphones for your use in controlling the privacy of your 
conversations.

   STATEMENTS OF ADRIAN PHILLIPS, CHAIR, WORLD COMMISSION ON 
PROTECTED AREAS (IUCN), EVESHAM, UNITED KINGDOM; HONORABLE DON 
 BARRY, ASSISTANT SECRETARY OF INTERIOR FOR FISH AND WILDLIFE 
 AND PARKS, U.S. DEPARTMENT OF THE INTERIOR; HONORABLE MALCOLM 
 WALLOP, CHAIRMAN, FRONTIERS OF FREEDOM INSTITUTE; AND GENERAL 
   RICHARD L. LAWSON, PRESIDENT, NATIONAL MINING ASSOCIATION

    Mrs. Cubin. The Chair now recognizes Adrian Phillips.

                  STATEMENT OF ADRIAN PHILLIPS

    Mr. Phillips. Thank you, Madam Chairwoman, and good 
afternoon, ladies and gentlemen.
    I want to begin by saying that only a very small part of 
your opening statements and those of your two colleagues, were 
audible here, so I am afraid that we only picked up a little of 
what you said.
    Good afternoon ladies and gentlemen
    Thank you for the opportunity to participate in your 
hearing on mining, protected areas and the world heritage 
convention. The topic is timely and often controversial, It 
would be good if more light can be thrown on the facts.
    Let me introduce myself first. I am a geographer and 
regional planner by background. I have worked at the National 
and International level in the environmental field since the 
early 1960's. For 11 years I headed up a U.K. Government agency 
on the countryside. Among my current jobs in the U.K. is advice 
to one of the largest aggregate (i.e. hard rock) companies in 
Europe.
    Since 1994, I have been the elected, volunteer (i.e. 
unpaid) chair of the World Commission on Protected Areas of 
IUCN, about which I will say more in a moment. It is in that 
capacity and as a member of IUCN's council that I appear today.
    I want at the outset to say how appropriate it is that this 
hearing should be undertaken by a Congressional Committee from 
the United States. Why so?
    Well, the U.S. is where the idea of National Parks began. 
It was such a good idea that it travelled around the world.
    Then it was with vision and President Nixon's enthusiastic 
support that the World Heritage Convention was launched in 
1972.
    IUCN itself came into being with the help of distinguished 
Americans, notably Hal Coolidge, a member of the Coolidge 
family. Within IUCN, Coolidge was a passionate advocate of the 
idea of National Parks and set up what is now the World 
Commission on Protected Areas which I chair.
    More recently, under President Reagan, the United States 
initiated the process of joining IUCN. This process was 
completed in 1990 under President Bush.
    The United States' contribution to National parks, the 
World Heritage and IUCN is held in high regard around the world 
even if we find some areas where we disagree today. I hope you 
will recognize and support the leadership role that the U.S. 
has played in these fields over the years.
    You have our written testimony. I may well need to refer to 
it in answering specific questions. But rather than repeat it 
now, I want to stress just three points:

    First: The alphabet soup: What are IUCN and WCPA?
    IUCN--The World Conservation Union, is a truly unique body. 
It brings together governments and non-governmental 
organizations in a union or partnership to tackle the big 
issues of conservation and sustainable development. No other 
organization does that.
    IUCN's members currently number 933. There are 76 state 
(i.e. country) members (of which the U.S.A. is one) and 111 
Government agencies. The rest are National and International 
NGO's. They meet every few years in a global World Conservation 
Congress. This is the highest policy-making body for the union. 
The next such meeting will be in Amman, Jordan in a year's 
time.
    IUCN is also unique because it includes expert networks, or 
commissions, in its structure, there are six of these. One of 
them is the World Commission on Protected Areas, or WCPA for 
short.
    Thus WCPA is part of IUCN, but with a distinct identity. It 
is a volunteer network of individual protected area experts 
from around the world. We have a number of leading North 
American experts among our members. A key task for us is to 
advise on how to plan and manage protected areas.
    And so, secondly, our position statement. You have no doubt 
read this. It contains no surprises. It is in fact based on 
common-sense and good practice.
    ``Common-sense'' because if an area has been ``protected'' 
for nature in natural law as a National Park, nature reserve or 
so on, you would be surprised if large scale mining were 
allowed within it.
    And ``good practice'' because what we recommend is in fact 
what many countries already do.
    The statement is an opinion and advice from a network of 
experts, many of whom have experience in dealing with mining 
issues in respect of protected areas. It gives a clear message 
about the importance of such areas and their protection. It 
also recognizes the value of cooperation between protected area 
agencies and the mining industry.
    Thirdly, the title of this hearing seems to be based on a 
misconception. It is ``the proposed world Heritage Committee 
policy prohibiting mining in areas surrounding world heritage 
sites''. Well, to the best of our knowledge, no such policy has 
been proposed moreover, the invitation letter to the hearing 
says that this alleged policy has been developed by IUCN. IUCN 
has never developed such a policy and the WCPA position 
statement of mining activities in relation to protected areas 
could not possibly be construed in this way.
    To conclude, WCPA is a global volunteer network. We are 
committed to IUCN's values: respecting science and technical 
quality; providing informed advice, encouraging dialogue; and 
seeking to link protection with finding sustainable livelihood 
for local people.
    That concludes my statement.
    [The prepared statement of Mr. Phillips follows:]
    [GRAPHIC] [TIFF OMITTED] T6727.002
    
    [GRAPHIC] [TIFF OMITTED] T6727.003
    
    [GRAPHIC] [TIFF OMITTED] T6727.004
    
    [GRAPHIC] [TIFF OMITTED] T6727.005
    
    [GRAPHIC] [TIFF OMITTED] T6727.006
    
    [GRAPHIC] [TIFF OMITTED] T6727.007
    
    [GRAPHIC] [TIFF OMITTED] T6727.008
    
    [GRAPHIC] [TIFF OMITTED] T6727.009
    
    [GRAPHIC] [TIFF OMITTED] T6727.010
    
    [GRAPHIC] [TIFF OMITTED] T6727.011
    
    [GRAPHIC] [TIFF OMITTED] T6727.012
    
    [GRAPHIC] [TIFF OMITTED] T6727.013
    
    [GRAPHIC] [TIFF OMITTED] T6727.014
    
    [GRAPHIC] [TIFF OMITTED] T6727.015
    
    [GRAPHIC] [TIFF OMITTED] T6727.016
    
    [GRAPHIC] [TIFF OMITTED] T6727.017
    
    [GRAPHIC] [TIFF OMITTED] T6727.018
    
    [GRAPHIC] [TIFF OMITTED] T6727.019
    
    [GRAPHIC] [TIFF OMITTED] T6727.020
    
    [GRAPHIC] [TIFF OMITTED] T6727.021
    
    [GRAPHIC] [TIFF OMITTED] T6727.022
    
    [GRAPHIC] [TIFF OMITTED] T6727.023
    
    [GRAPHIC] [TIFF OMITTED] T6727.024
    
    [GRAPHIC] [TIFF OMITTED] T6727.025
    
    [GRAPHIC] [TIFF OMITTED] T6727.026
    
    [GRAPHIC] [TIFF OMITTED] T6727.027
    
    [GRAPHIC] [TIFF OMITTED] T6727.028
    
    [GRAPHIC] [TIFF OMITTED] T6727.029
    
    [GRAPHIC] [TIFF OMITTED] T6727.030
    
    [GRAPHIC] [TIFF OMITTED] T6727.031
    
    [GRAPHIC] [TIFF OMITTED] T6727.032
    
    [GRAPHIC] [TIFF OMITTED] T6727.033
    
    [GRAPHIC] [TIFF OMITTED] T6727.034
    
    [GRAPHIC] [TIFF OMITTED] T6727.035
    
    Mrs. Cubin. Thank you for your testimony. The Chair now 
recognizes the Honorable Don Barry, Assistant Secretary for 
Fish and Wildlife and Parks.

             STATEMENT OF HONORABLE DONALD J. BARRY

    Mr. Barry. Thank you, Madam Chairman. I would like to thank 
the committee for the opportunity to appear today to discuss 
the Department of the Interior's views regarding the proposed 
policy to prohibit mining in areas surrounding World Heritage 
sites. At the outset of this discussion it is important to 
clarify exactly what is at issue today and what is not.
    First, I note that the invitation the Department received 
to testify references, quote, ``the proposed World Heritage 
Committee policy prohibiting mining in areas surrounding World 
Heritage sites,'' end of quote, which is an understandable, but 
incorrect characterization of the document that you invited us 
here today to discuss. The document entitled, quote, ``a 
position statement on mining and associated activities in 
relation to protected areas,'' end of quote, a copy of which is 
attached to my testimony, has been drafted by one of the six 
subgroups or commissions of the IUCN.
    This statement does not propose an all-out ban on mining in 
parks or protected areas. Moreover, this statement has not been 
formally proposed for adoption by the World Heritage Committee; 
there is no indication that it will be proposed for adoption. 
It was provided to the World Heritage Committee as an 
information document only.
    Furthermore, even if such a statement of policy were 
adopted by the World Heritage Committee, it would not bind the 
United States in any way. The World Heritage Convention 
explicitly recognizes the sovereignty of parties' oversights in 
their territories on the World Heritage list.
    Actions taken in the United States to protect World 
Heritage sites are taken pursuant to our own domestic laws. 
Further background on the mining position statement and on the 
United States participation of the World Heritage Convention 
was offered in the interests of putting concerns surrounding 
this document to rest.
    The World Heritage Committee was established under the 1972 
Heritage Convention to place natural and cultural sites of 
outstanding universal value on the World Heritage list. The 
committee also identifies sites for inclusion on the list of 
World Heritage in danger. The United States has had a 
longstanding and leading role in all aspects of the World 
Heritage Convention. To begin with, the idea of negotiating the 
convention was an environmental initiative of the Nixon 
administration. Following the ratification of the convention by 
the United States Senate in 1973 with a 95 to 0 vote, the 
United States has been active in the work of the World Heritage 
Committee. The first meeting of the convention, for example, 
took place in Washington, D.C. In 1978.
    The World Heritage list currently includes 20 of America's 
most outstanding natural wonders and cultural sites and are 
recognized as of world importance: Mesa Verde, Grand Canyon, 
the Hawaii volcanoes national parks, and the Statue of Liberty 
are some of the United States sites on the World Heritage 
lists. These United States World Heritage sites are beloved by 
the American public; they also attract tourists from all over 
the world.
    The International Union for the Conservation of Nature, 
IUCN, also known as the World Conservation Union, is an 
international organization comprised of governmental entities 
and nongovernmental organizations. Established in 1948, it is 
one of the world's oldest international conservation 
organizations. IUCN is a union of government agencies and 
nongovernmental organizations who work with scientists and 
experts to protect nature in cultural areas. The State 
Department, NOAA, EPA, USAID, the National Park Service are 
some of the U.S. Government agency members.
    In addition to bringing together the governments and 
nongovernment organizations, IUCN has set up international 
networks of volunteer experts grouped together and six global 
commissions that perform specialized work. The World Commission 
on Protected Areas is one of these commissions. It is concerned 
with parks and nature reserves generally, and drafted the 
document on mining that we are discussing at this hearing 
today.
    The World Heritage Convention designated IUCN as an 
official advisor on natural site issues. The World Heritage 
Bureau, a subcommittee of the World Heritage Committee, was 
informed in December of 1998 that a position statement on 
mining and associated activities was being prepared by the 
World Commission on Protected Areas under the auspices of IUCN. 
The bureau requested that the document be made available for 
information purposes at the bureau's July 1999 meeting. To the 
best of our knowledge, it would be nothing more than an 
information document for the full committee meeting in 
December.
    I would like to emphasize again that the statement is not 
being proposed for adoption by the committee as a policy to be 
applied to World Heritage sites. Insofar as the content of the 
mining statement is concerned, it defines positions towards 
mining and associated activities in and adjacent to protected 
areas.
    The statement recommends that mining be considered an 
incompatible activity within national parks and equivalent 
reserves that are managed mainly for science, wilderness 
protection, ecosystem protection or the protection of some 
specific natural features or species. In protected areas 
managed for mixed uses, the statement suggests that mining 
could be permitted under controlled circumstances and 
conditions. Regarding mining outside parks, it concerns itself 
only with the indirect impacts that mining may have on parks.
    In summary, the Department receives advice all the time 
from many quarters on how to manage and operate national parks 
and wildlife areas in the United States. These suggestions are 
considered, but they do not control us nor do they dictate in 
any way United States park policy.
    We protect parks because they are America's national 
treasures, and it is our responsibility under United States 
domestic law, not because IUCN documents or World Commission on 
Protected Areas documents suggest that we should. We are sworn 
to protect the parks, and the American people and your 
constituents expect us to do so.
    In conclusion, let me emphasize that there would be no 
occasion for the United States to either endorse or adopt this 
mining policy statement inasmuch as such informational policies 
by organizations like the World Commission on Protected Areas, 
or IUCN, or the World Heritage Committee do not supersede U.S. 
law under any circumstance.
    That concludes my statement. Thank you.
    Mrs. Cubin. Thank you.
    [The prepared statement of Mr. Barry follows:]
    [GRAPHIC] [TIFF OMITTED] T6727.036
    
    [GRAPHIC] [TIFF OMITTED] T6727.037
    
    [GRAPHIC] [TIFF OMITTED] T6727.038
    
    Mrs. Cubin. The Chair now recognizes the Honorable Malcolm 
Wallop, chairman of Frontiers of Freedom

             STATEMENT OF HONORABLE MALCOLM WALLOP

    Senator Wallop. Thank you, Madam Chairman, and thank you 
for holding the hearing.
    I am here as a representative of my group called the 
Frontiers of Freedom, which has been a strong supporter of 
Chairman Don Young's American Lands Sovereignty Protection Act 
since it was first introduced in the 104th Congress, and we are 
grateful for your strong support. We are pleased that it has 
once again passed the House, and it is now awaiting action in 
the Senate; but it is crucial that this important legislation 
be passed and enacted into law as soon as possible.
    The latest actions of the IUCN and the proposed action of 
the World Heritage Committee are troubling validation for 
supporters of the American Land Sovereignty Protection Act. 
Nearly 3 years ago Frontiers of Freedom was invited to testify 
at a hearing of an earlier version of this legislation, and 
testifying on the same panel on behalf of the United Nations 
was Nina Sibal, the Director of the New York and Washington 
offices of UNESCO. Director Sibal testified that, quote, ``The 
United Nations and its specialized agencies, such as UNESCO, 
have absolutely no jurisdiction over the territories designated 
as biosphere reserves or World Heritage sites which remain 
totally under national jurisdiction.''
    Madam Chairman, you would agree that this is a good and 
clear statement and would be reassuring if it were only true in 
practice. But in fact the World Heritage Committee, while 
protesting that it in no way threatens to infringe on national 
sovereignty, does just that. The intervention of the World 
Heritage Committee over the New World Mine and mentionied by 
Representative Chenoweth north of Yellowstone Park, one of the 
original 12 World Heritage sites, is the best known example in 
this country. And one of the great effects of that was to stop 
a mining company which was engaged in reclamation of former 
mining waste, and disposal was stopped in that. So not only did 
the park receive no protection, it in fact exacerbated the 
problems that already existed at that site. There is an 
expanding list of others.
    On December 1, as mentioned again by Representative 
Chenoweth-Hage, the Jabiluka uranium mine constituted a threat 
to Australia's Kakadu National Park, despite an official 
finding of the Australian Government that it did not constitute 
a threat. The Australian Government made this finding after an 
exhaustive environmental review process over many years as 
prescribed by their own environmental laws. The World Heritage 
Committee made its finding after a brief visit, such as the one 
visited upon us, by a special investigation team from outside 
the country; and they generated a huge amount of hysteria, 
called by my friend, Assistant Secretary Barry, ``dialogue by 
environmental pressure groups.'' The World Heritage Committee 
and the UN may not yet have the power to enforce any findings, 
but it is clearly an attempt to assert authority over 
management of Kakadu National Park.
    In December, in Morocco, the committee will consider the 
recommendations to ban mining near World Heritage sites. This 
is outrageous on three counts. First, it is a blatant attempt 
to establish management jurisdiction over buffer areas or zones 
around the sites. The intention to assert buffer zones has been 
repeatedly and expressly denied by UN officials.
    Secondly, the World Heritage Committee has no authority and 
should have no role. Those decisions should be left, as you 
mentioned, to the elected representatives of the United States.
    Third, the behavior of our own administration is equally 
outrageous. Secretary Barry was saying that everything would be 
followed by U.S. laws, but we have come to find that U.S. laws 
can be superseded by executive orders, and we are worried that 
executive orders would do just this.
    It appears that the administration thinks little of our 
Nation's tradition of conducting the people's business in the 
open, and in a way to involve the very people and businesses 
most impacted by these proposed policies. How else can they 
explain their attempt to use the U.N. to slip this proposed 
policy by the American public without involving the people's 
representatives and the people in the industry that have the 
most at stake? The result would be a disaster for American 
sovereignty, for private property rights, Federal land 
management, and environmental protection and to the industries 
affected.
    Surely such a policy should not be pursued in secret nor 
should such authority be ceded to international bureaucrats. It 
is for Congress to decide such policies and not the Clinton 
Administration.
    Another issue is the fact that this policy, whether it has 
any authority or not, will be another weapon in the arsenal of 
environmental pressure groups to stop economic development all 
around the world. Just as in the case of the New World Mine, 
north of Yellowstone, pressure groups will use this policy to 
have World Heritage sites declared as in peril and will use the 
publicity to whip up public opinion against proposed oil, gas, 
and mining activity.
    Madam Chairman, this concludes my testimony and I would be 
happy to answer any questions that you or the committee may 
have.
    Mrs. Cubin. Thank you, Senator Wallop.
    [The prepared statement of Senator Wallop follows:]
    [GRAPHIC] [TIFF OMITTED] T6727.039
    
    [GRAPHIC] [TIFF OMITTED] T6727.040
    
    [GRAPHIC] [TIFF OMITTED] T6727.041
    
    Mrs. Cubin. The Chair now recognizes General Richard 
Lawson, the President of the National Mining Association.

                 STATEMENT OF RICHARD L. LAWSON

    Mr. Lawson. Thank you, Madam Chairman. I am Richard Lawson, 
the President of the National Mining Association, and our 
association represents those enterprises that deliver to public 
use most of the metals, minerals and coal that are required to 
uphold and strengthen America in daily life. This hearing is a 
public service of the first order, the first open and public 
discussion of an international proposal of national and global 
importance.
    The governing apparatus of the World Heritage Convention of 
the United Nations appears poised to initiate a no-mining 
policy. Yet, until now, it scarcely could have moved forward 
with less notice had stealth and stratagem been their principal 
implementing strategy. The United States and other signatories 
will be pressured intensely to use this policy vigorously in 
the guise of expanding control over already-designated areas. 
Indeed, some recent mine-related interpretations of policy at 
the Department of the Interior, including the new policy 
directive on millsites, seems to have this no-mining policy 
already in mind. Yet the scope, intent and origins of this 
policy have yet to be offered for public examination. They have 
not been explained or justified as representative democracy 
requires, not so much as even mentioned by the participating 
agencies in the U.S. Government to the mining industry.
    The U.S. contains a major portion of the world's minable 
resources, a major share of the world's natural sites with the 
Heritage designation, and a major number of the areas 
categorized for protection in the world, well over 18 Heritage 
sites in all. U.N. Documents list about 426,000 square miles of 
the United States as so protected. Just for your information, 
that is equal to Germany and the United Kingdom and Japan and 
throwing in Bosnia and Croatia just to make an idea of the 
amount of area that we are talking about.
    The United States mining industry is a major producer and 
major participant in world markets for most of the material 
resources and energy needed to uphold modern life. It is the 
world's most efficient and the world's most technologically 
adept at environmental protection and remediation. Such a 
policy would affect present and future output of our mining 
industry. Yet the industry has neither been advised nor 
consulted, not by the convention or the governing committee, 
not by the committee bureau of the affiliate from which the 
policy comes, the International Union for the Conservation of 
Nature, not by the U.S. Department of State and not by the U.S. 
Department of the Interior as part of the U.S. participation in 
the convention or its like participation in the International 
Union for the Conservation of Nature, the IUCN.
    Indeed, IUCN policy excludes from membership and 
participation any that it finds not in accord with its beliefs 
and objectives. Members include such organizations as the World 
Resources Institute, the National Resources Defense Council, 
the Environmental Defense Fund, the Sierra Club, Defenders of 
Wildlife and the World Wildlife Fund, but no mining 
organization.
    It is true that the World Heritage Convention cannot 
require compliance. It is equally true that these organizations 
are likely to wage campaigns of pressure and possibly 
litigation to make no-mining a formal policy. That would be 
wielded as a weapon whenever and wherever a mine is proposed. 
The danger is that a no-mining policy quickly will be made to 
function as the following:
    As a de facto obligation of the United States of America;
    As a policy, even though it has not been authorized by any 
act of the Congress;
    As a sanctioned regulatory practice, even though imposed in 
defiance of the Administrative Procedures Act;
    As the regulatory equivalent of a law even though there can 
be no proper judicial review or appeal as provided for by the 
Constitution; and
    Finally, it will certainly be used and abused in the 
campaigns of intimidation to nullify and override proper 
decisions of representative governments--local, State, and 
Federal.
    The ultimate results of a no-mining policy may well 
include:
    The removal of vast resources from public use and benefit, 
a crude form of rationing;
    Higher prices than necessary for energy goods and services;
    The distortion of world markets for energy and material 
resources;
    Strains on national and global economic security; and
    Increased demands for the commitment of U.S. national 
security forces to keep world affairs stable.
    In sum, the World Heritage Committee's no-mining policy is 
an instrument of manipulation, mischief and maladministration. 
I urge you to do all in your power to ensure it falls back into 
the mists of vagueness and obscurity from which it arose.
    It shows cause for the enactment of the American Land 
Sovereignty Protection Act in the 106th Congress; and it 
suggests that Congress could constructively inquire into the 
functions and relationships of the organizations and groups 
involved.
    Written testimony that I have attached goes into further 
detail. Thank you for your attention and this opportunity.
    Mrs. Cubin. Thank you, General Lawson.
    [The prepared statement of Mr. Lawson follows:]
    [GRAPHIC] [TIFF OMITTED] T6727.042
    
    [GRAPHIC] [TIFF OMITTED] T6727.043
    
    [GRAPHIC] [TIFF OMITTED] T6727.044
    
    [GRAPHIC] [TIFF OMITTED] T6727.045
    
    [GRAPHIC] [TIFF OMITTED] T6727.046
    
    [GRAPHIC] [TIFF OMITTED] T6727.047
    
    [GRAPHIC] [TIFF OMITTED] T6727.048
    
    [GRAPHIC] [TIFF OMITTED] T6727.049
    
    [GRAPHIC] [TIFF OMITTED] T6727.050
    
    [GRAPHIC] [TIFF OMITTED] T6727.051
    
    [GRAPHIC] [TIFF OMITTED] T6727.052
    
    [GRAPHIC] [TIFF OMITTED] T6727.053
    
    Mrs. Cubin. I thank all of the witnesses for their 
testimony. Can you hear better now, Mr. Phillips?
    Mr. Phillips. Yes, I can hear better now.
    Mrs. Cubin. I do thank all of the witnesses for their 
testimony and the members for their attention. The Chair will 
now recognize members for questions of the panel, and I will 
begin by asking Chairman Chenoweth to begin.
    Mrs. Chenoweth-Hage. Thank you, Madam Chairman. I am 
directing my questions to Mr. Phillips.
    I am sure that you are aware of a document entitled, Metals 
from the Forest, which is published jointly by IUCN and the 
World Wildlife Fund. This publication was issued in January of 
1999. Mr. Phillips, it appears to have a very strong bias 
against mineral protection by making some very outrageous 
claims. Let me read to you some of those claims in part of the 
article entitled ``Social Impacts''; that section is found on 
page 24.
    One of the statements that they make is, ``Large-scale 
mines displace local communities.'' I find that astonishing. 
This statement and the rest of this fails to mention 
communities that are being created throughout the world where 
mining companies are building housing and schools and other 
facilities to actually improve people's lives.
    Another statement that is made in this document states, 
``State or private armies are sometimes used to secure mines.'' 
now, the document cites the Grasberg-Ertsberg mine in Indonesia 
as an example, but armies in Indonesia have done many heinous 
acts in East Timor and have no relationship whatsoever with 
mining.
    This is obviously an outrageous example intended to promote 
an antimining agenda, sir.
    Furthermore, this article states, ``Life expectancies of 
people living near mining sites can be substantially reduced,'' 
end quote. Let me assure you that life expectancies can be 
reduced by living near a high-crime area like within 1 mile of 
this hearing room. Needless to say, this is another bizarre 
statement in this document.
    And they state that mineral wealth can actually depress 
social conditions in developing countries. Is this not why the 
Congressional Black Caucus earlier this year urged the 
International Monetary Fund not to depress world gold prices 
and devastate black mine workers in South Africa by conducting 
large gold sales?
    And finally, sir, in this article it ends by saying, ``In 
fact, the superior resources base of a mineral economy has been 
more of a curse than a blessing.'' .
    Now, these are shocking statements. Let me ask you, did 
IUCN have a peer review process before this publication went 
out?
    Mr. Phillips. Well, thank you for drawing my attention to 
that, and obviously I am aware of the document. I have a copy 
here. I would like to make two points by way of reply.
    The first is to completely refute the idea that IUCN has, 
as you put it, an antimining agenda. That is wholly wrong. We 
recognize that mining companies make a very significant 
contribution to national economies and indeed to the 
development of society as a whole. It would be our wish to have 
more contact with mining companies. I would like to come back 
to this issue in a moment when I address some of the specific 
points that you just made about the publication.
    The publication is, I think, a well-documented and well-
researched effort to establish some of the problems associated 
with mining. We have received one letter which has pointed out 
some apparent errors, a very constructive letter from Freeport 
which relates to the mining in Irian Jaya, Indonesia. If there 
are other shortcomings in the text, we would be very pleased to 
receive information about these and comment on them, but I want 
to come back to the first point.
    The view of IUCN towards the mining industry is that there 
are important environmental responsibilities that they should 
take on, and many of the best companies do. But we would like 
to get into a much more constructive dialogue with the mining 
industry. There is fortunately a possibility of that being 
developed at the global level through a current initiative of 
the major mining companies under the World Business Council for 
Sustainable Development. I would like it to be known, and put 
on record, that IUCN would like to participate with the major 
mining companies in that discussion. I believe that is a 
constructive way forward.
    Mrs. Chenoweth-Hage. Will there be a peer review process 
before documents such as this are issued in the future? And 
what would the peer review process consist of?
    Mr. Phillips. Well, as I said, I think that we now need to 
move into a process of dialogue with the mining companies and 
work on this issue together. I have got here beside me a number 
of examples where IUCN has worked with different sectors of 
industry and, in fact, produced guidance that has the support 
of both the IUCN network and the mining sectors concerned. (I 
am using the word ``mining'' in the broader context).
    I think peer review for publications on mining and the 
environment can best be done by bringing together the 
conservation world and the mining or developmental world. That 
is a healthy approach, and an appropriate desire for 
publications issued by IUCN.
    Mrs. Chenoweth-Hage. Thank you, Professor.
    I am now looking at your statement that you have submitted 
to this committee where you state that this document in 
question before the committee is not a policy statement, but 
rather a position paper--I don't feel very sanguine about that 
because of what happened to us in the New World Mine--but that 
these positions are arrived at through recommendations through 
the governmental and nongovernmental members of the World 
Conservation Congress, and the statement comes in the form of 
an opinion. It does not purport to be a negotiated text, but 
they do take care to try to consider the views of the mining 
industry and to encourage dialogue.
    I also note in your testimony that the protected area 
management categories are referred to back here on page 7, and 
that there is also a quote here from the 1999 Paris meeting 
where the bureau took note of the position paper that came out 
of the 1998 Kyoto meeting. And the final sentence that is 
quoted here indicates that mining companies don't seem to fall 
into any one of the six categories that are under consideration 
for management.
    So, in essence, Professor, it appears you have, through 
this statement, defined mining out of the argument by 
definition. And so this does not assure us very much of, first 
of all, our own sovereign ability to control our resources; and 
secondly, that mining is considered a category for management.
    Let me read to you what your statement says. It says, 
``Finally, it has to be noted that mining is not considered to 
be compatible with any of the Categories I through IV and, for 
V and VI, only under certain conditions. IUCN is prepared to 
continue consultations on this issue including with the mining 
industry and its International Council on Metals and the 
Environment.''
    I yield back the balance of my time which I see I don't 
have any left.
    Thank you, Madam Chairman.
    Mrs. Cubin. The Chair now recognizes Mr. Underwood.
    Mr. Underwood. Thank you, Madam Chairman. There are two 
ostensible issues that have been raised in concern of the 
activities of the World Heritage Council and the IUCN. One 
pertains to, as outlined by our colleague from Idaho, that 
there is an existing antimining bias in the nature of your 
work, Professor Phillips. The other is the concern that somehow 
or other the work that you engage in erodes national 
sovereignty and infringes upon the rights of independent states 
to somehow manage their own resources.
    I am interested in your reaction to the characterization of 
your efforts regarding that perhaps you have a kind of stealth 
agenda, not in terms of an antimining bias, but simply in terms 
of how do you--what is the nature of your work? Do you have 
something else in mind as you proceed?
    If indeed you adopt these guidelines at the World Heritage 
Committee--which I understand are not your guidelines; they are 
being proposed to you and you are to address them sometime next 
month. If you adopt these, what do you foresee in terms of the 
interaction in the nature of your work that would conceivably 
alter the capacity of independent states to manage their 
resources?
    Mr. Phillips. Thank you very much. I think it is important, 
first, to make it clear that this position statement comes from 
a body of experts in protected areas. It is not IUCN policy. If 
that requires further explanation, I would be very pleased to 
provide it.
    It is a position adopted by experts and offered as advice, 
in a sense, to anybody in the protected areas world who wishes 
to listen. It clearly doesn't have the power to override or 
even affect sovereignty. Governments, state governments and 
others are entirely free, obviously, to determine what happens 
in their national parks and other protected areas according to 
national laws, and they are accountable to their national 
populations for that purpose.
    I think the most useful contribution that this position 
statement can make is to illuminate the discussions that will 
take place within countries it would help, for example, many 
developing countries to decide whether or not to grant mining 
licenses and where priority should be given to conservation. So 
it is a technical contribution to an ongoing debate.
    I don't see, as I said, anything in this which by any 
stretch of the imagination could be said to affect, let alone 
erode, sovereignty--not in the way in which it is written nor 
given the origin of the organization responsible for it. 
Because as I said, the World Commission on Protected Areas is a 
network of experts operating in this field. We have no powers, 
none whatsoever, to instruct other people. That is a totally 
unreal representation of this work.
    Mr. Underwood. Professor, wouldn't you concede that by--
since you are a world body of experts, wouldn't you concede 
that by making sweeping statements or perhaps making 
recommendations or adopting recommendations that you are, in 
effect, interposing your considerable influence in what are 
normally conceived of as internal debate?
    Mr. Phillips. No, I don't think so. I don't think that I 
would accept it as being sweeping. I would say that most of 
this, as I said in my introductory oral statement, is really no 
more than what many countries do in any case. So it is just a 
statement of good practice.
    Governments all around the world are on the receiving end 
of a great deal of advice from different sources; there are 
other sources, and some of that advice will be contrary. It 
doesn't override sovereignty, it is just a piece of information 
that governments and others could make use of when they have to 
make decisions on land use planning and protected areas in the 
future and so forth.
    Mr. Underwood. I certainly thank you for your participation 
today and your comments have been very illuminating.
    I just wanted to ask Senator Wallop and perhaps General 
Lawson just a quick question on how you see this issue, because 
the issue of national sovereignty is, I think--I appreciate the 
concern about mining, but I want to stick to the issue of 
whether this in some way erodes--since both of your testimonies 
make reference to that--it erodes or inhibits our capacity to 
manage our own resources.
    Is it the position of either of you that any kind of 
participation in international agencies or activities of this 
kind is undesirable, and we should withhold from that; or are 
you just upset with the fact that they seem to be going in a 
given direction?
    Senator Wallop. That is sort of a magnificent 
generalization of the position that we think any kind of 
participation would be out of acceptable--.
    Mr. Underwood. Is there some redeeming value to our 
participation in World Heritage?
    Senator Wallop. Not generally, as General Lawson would tell 
you. There has been no dialogue with the mining industry. In 
fact, they refused to allow them in. There have been no 
dialogues with the administration, with any level of it, in any 
participation.
    I think you mentioned that the State Department, they 
wouldn't even come to talk to your committee. Neither would the 
Environmental Protection Agency, neither would Interior, before 
going off and making these recommendations. Professor Phillips 
says they don't have any intention of influencing national 
policy; clearly they do. They did in Australia, they did in 
Wyoming with the Noranda mine. And it was used by the Clinton 
administration's Department of the Interior to generate and 
whip up a public furor and to eliminate all chances of 
dialogue.
    A stereo is not dialogue; it requires a couple of people to 
talk before you do that. There is not one group of people 
shouting, and that is what it was used to do. The President, 
taking his manly vacations, in Wyoming in those years managed 
to take a little trip up there; and then we invited Canadians, 
Norwegians, and some other people, French, to come and tell us 
that we did not know how to take care of our own property and 
that we were threatening a World Heritage site. So the fact of 
it is, our experience tells us that they do have the intention 
of and are very effective at influencing national policy.
    Mr. Underwood. General Lawson.
    Mr. Lawson. I think one of the aspects that concerns us 
about the issue was, first of all, the reference to the mining 
industry. And the representative has indicated that he has no 
experts on his group that are experts in mining, that they are 
only experts about the so-called Heritage areas. Then how could 
he suggest, for example, as Congressman Chenoweth points out, 
that mining is not appropriate in I, II, III and IV, and only 
marginally appropriate in V and VI?
    The minerals of this globe are not uniformly distributed. 
They happen where they happen. This not only talks about 
mining; it talks about the association, the exploration, all 
aspects of the industry. This kind of action is used not just 
where a mining activity would occur, but it wants to preclude 
any examination at all. As I cited, this is not an 
insignificant amount of the U.S. land. It is a very large 
amount of area, 462 million acres.
    Mr. Underwood. I thank you. And I thank the indulgence of 
the Chair.
    Just a brief comment. I wanted to point out that in the 
categories as I understand them that Categories I through IV 
include wilderness areas and national parks; we don't allow 
mining in any of them.
    But the concern that I want to--because the term 
``hysteria'' has been used. To the extent that I understand how 
sometimes statements are used by various advocacy groups and 
the statement by the World Heritage Committee, I am sure, could 
carry a great weight and sometimes could be used in a way that 
may appear to elicit an overly emotional response.
    I think when we start dealing with issues of national 
sovereignty, I think we run into the same kind of problem. I 
think characterizing some of these things as infringements on 
national sovereignty, I think goes beyond the pale also in 
terms of the debate about what we are confronting within terms 
of the actions of the World Heritage Council.
    Senator Wallop. If I may, yes, language does tend to run 
upstream from reality in some of this, but we are operating 
from experience.
    We have in this country a well-tested procedure for 
determining threat or danger of environmental or otherwise when 
undertaking major national issues. It is called an 
Environmental Impact Statement. This administration was 
unwilling to wait for that result; they got a hold of the 
foreign inspector--I don't know what they call them, but they 
were--they were the ones that brought them down.
    So testifying from experience, maybe not in every instance, 
I am perfectly willing to concede that in every instance they 
don't seek to influence national policy. But when they do, they 
are very effective at it because they do whip up hysteria and 
they do stop dialogue; and they did in this instance stop the 
procedure that has been set down in law to determine threat.
    Mr. Underwood. I think my point is, even in the short time 
that I have been associated with this subcommittee, I have 
received numerous messages about the activities of the World 
Heritage Committee which I would consider hysterical in terms 
of the fact that they are some way infringing upon our capacity 
to do regular business. That is what I am saying. So I think 
the use of the term ``hysteria'' or the introduction of it into 
the debate could cut both ways.
    Of course, we are free to ignore whatever the World 
Heritage Committee says or whatever they point out. So I just 
wanted to, in a sense, balance the books on that.
    I also wanted to congratulate Mike there for his work on 
this televideo conditions. We heard that trans-Atlantic sneeze 
very clearly.
    Mrs. Cubin. Thank you, Mr. Underwood.
    Mr. Gibbons.
    Mr. Gibbons. Thank you, Madam Chairman. I appreciate your 
leadership on this issue and the fact that you have taken the 
time to bring a hearing together on this very troubling issue. 
I want to follow on some of the comments of my colleague from 
Guam, Mr. Underwood, with the sovereignty issue.
    It seems only too clear that if we cede part of the power 
of the United States Government over its own internal affairs, 
its own internal property to an agency outside of the United 
States without the concurrence of the Congress, then we have 
yet conceded power of the United States Government. When you 
concede power of the government, you then concede the rights of 
people under the Constitution of the United States to those 
properties as well.
    I am concerned that we now have an agency with a 
concurrence of this government that may very well, without 
notice, without right of recourse, be able to have or give a 
direction and influence property in the United States.
    I would like to turn, if I could, to Mr. Barry and ask him, 
what role did the Department of the Interior have or play in 
inviting or bringing the World Heritage people--I presume it is 
the World Heritage Committee--to the New World project? What 
role did you play?
    Mr. Barry. I was not the Assistant Secretary at the time, 
and I had no personal involvement in the New World Mine 
situation. But it is my recollection that George Frampton, my 
predecessor, did indicate that it would be worthwhile to have 
some experts come from the World Heritage Center to take a look 
at the situation at New Mine.
    Mr. Gibbons. So your testimony is that the Department of 
the Interior invited the World Heritage Committee and its 
experts on mining to view--come to the New World project; is 
that correct?
    Mr. Barry. That is correct.
    Mr. Gibbons. Now, you testified in paragraph 4, the last 
sentence of your testimony that you wrote here today, that 
actions taken in the United States to protect World Heritage 
sites are taken pursuant to our own domestic laws. According to 
our U.S. domestic law--and may I cite to you 16 USC 
470(A)(1)(c), ``No non-Federal property may be nominated by the 
Secretary of Interior to the World Heritage Committee for 
inclusion on the World Heritage list unless the owner of the 
property concurs in writing to such nomination.''
    Now, since the Interior Department invited the World 
Heritage Committee to that property, how do you balance that 
invitation with the laws that say that U.S. property is 
protected according to our own domestic laws, when in fact it 
ended up being a World Heritage nomination and excluded from 
further operations?
    Mr. Barry. The reference is to Yellowstone, not to the New 
World Mine site. It was Yellowstone that was the World Heritage 
site. Most of the sites that we have on the World Heritage list 
are national parks. There are only about three or four examples 
that are not national park units and they were all put on the 
list with the concurrence of the owners. Monticello, 
Jefferson's home, is an example.
    Mr. Gibbons. Was the New World project put on the list with 
the concurrence with the owners?
    Mr. Barry. No, it's not on the list.
    Mr. Gibbons. Did those experts go to the New World project?
    Mr. Barry. It was Yellowstone--.
    Mr. Gibbons. Did they go to the New World project?
    Mr. Barry. They took a look at it, as I understood, but I 
wasn't there at the time.
    Mr. Gibbons. The point was just made by staff that they 
were using a designation on private property outside of the 
park, so it was an extension of what you have been testifying 
in strong support of here today, that they used on private 
property ultimately.
    Let me ask another question. This IUCN mining statement 
that you say is just a statement. Will the United States and 
this administration oppose any adoption, any proposal of 
adoption, of that statement if it is proposed in the World 
Heritage Committee?
    Mr. Barry. We will have no opportunity one way or the other 
to vote for it or against it because the United States is not a 
member of the bureau, will not be a member of the committee. We 
are just going in as observer status for this particular 
meeting, so we will have no opportunity to express our views 
about it one way or the other.
    I have to also let you know that we are not under any 
impression that this document is going to be brought up by any 
vote by anybody.
    Mr. Gibbons. Will this administration use its influence 
knowing the disastrous effect it is having on the United States 
to oppose any adoption of this statement?
    Mr. Barry. I would have to disagree with your 
characterization of the effect of this document or the effect 
of the World Heritage Convention on World Heritage sites in 
this country. I should point out that it was a Republican-
controlled Congress that gave us $64 million to buy the New 
World Mine. If this was such a disaster in the making, why did 
the Republican-controlled Congress give us the money to buy 
that out?
    Mr. Gibbons. That is like saying once the horse is out of 
the barn we are going to close the door and stop everything 
from happening that is disastrous. What we were doing was 
saving the lawsuit and the contract and the agreement that 
these people had invested in that property before this 
designation came along.
    I yield back the balance of my time to the chairman.
    Mrs. Cubin. I tell you, this stuff gets out of hand. Thank 
you for your question, Mr. Gibbons.
    I would like to start my questioning with Adrian Phillips. 
Was the mining position endorsed by the IUCN Council?
    Mr. Phillips. No, it was not. It was welcomed by the 
Council. I could read you the text from the council minutes. 
Would you like me to do that or--.
    Mrs. Cubin. Well, I don't know exactly--I don't understand 
your terminology, so I guess, yes, go ahead and read it.
    Mr. Phillips. I will quote from the minutes first so that 
we can be quite clear what the official record is:
    ``The Council welcomes the World Commission on Protected 
Area's position statement on mining and associated activities 
in relation to protected areas as an important contribution to 
IUCN's work in protected areas and partnership with the private 
sector.'' That is from the minutes of the Council of the IUCN 
meeting in April of this year.
    Mrs. Cubin. I don't think that that actually is what I 
intended. I must not have made myself clear in the question.
    I have a document in front of me that says ``The WCPA 
Position Statement on Mining and Associated Activities in 
Relation to Protected Areas,'' and it says, ``endorsed by the 
IUCN Council on 27 April 1999.''.
    Mr. Phillips. Which document is that, Madam Chairwoman?
    Mrs. Cubin. It is one that was passed out in Paris. The 
document is WHC-99/conference.201/INF.14.
    Mr. Phillips. Yes. I know the document and what it states 
is incorrect. When I learned about this, I informed the World 
Heritage Center and I said, this is a misrepresentation of the 
status of the position statement. And the document that goes to 
the participants in the World Heritage Committee meeting in 
Marrakesh, Morocco will make clear the status of this document, 
and will correct that mistake in the cover note.
    Mrs. Cubin. I would like to go back to the statements that 
were in the document that Mrs. Chenoweth referred to. She asked 
you if you agreed with these or if this was the position of the 
IUCN, if it remains a position. I didn't understand your 
answers, so if you could just respond to these, I will just 
cover them.
    ``Large-scale mines displace local communities.'' The point 
that I am getting at is while I think the statements made in 
that document appear to have a very strong bias against mineral 
production because these, what I consider to be outrageous 
claims were made especially when there is no mention whatsoever 
of the good that mining provides to the people of the world. I 
think leaving that out terribly distorts the whole picture. You 
do agree with this statement, ``large scale mines displace 
local communities''? You do or you don't?
    Mr. Phillips. Well, I am sure there are one or two cases 
where that is correct. But I would have expected that in this 
document and I believe there is a reference to it there should 
also be a proper recognition of the positive role that mining 
and minerals can play in the economy and the lives of people.
    But the document also quite rightly points out there are 
problems, too, environmental and social problems. It is not a 
particularly dramatic thing to identify those. They are pretty 
well-known and often referred to. To my mind, the most 
constructive way forward now would be to focus on these 
problems through a proper dialogue between the mining industry 
and the principal conservation organizations, as I suggested 
earlier.
    Mrs. Cubin. So at this point in time do you or do you not 
think that that statement is relevant and reflects reality?
    Mr. Phillips. Well--.
    Mrs. Cubin. Yes or no would be better.
    Mr. Phillips. You are taking one line out of context.
    Mrs. Cubin. No, I am not. It says after that--pardon me? I 
am going to be taking these others, I am not taking them out of 
context. These are statements that are made.
    The next one is ``State or private armies are sometimes 
used to secure mines.'' Do you think that is fair, accurate and 
not misleading?
    Mr. Phillips. I think it is misleading if one identifies a 
particular issue without providing justification for it. The 
particular reference goes on to quote a number of examples of 
mines which have led to some displacement of people. And that 
seems to me to be a perfectly fair thing to put in the social 
impacts.
    I also think that it would be helpful to put in some of the 
positive things that mining contributes, and I am well aware 
that the livelihoods of many people depend upon an effective 
mining industry. But to deny there are problems seems to me to 
be unreal.
    Mrs. Cubin. Are you familiar with the term ``multiple use'' 
and what it means in the United States?
    Mr. Phillips. Sorry?
    Mrs. Cubin. Are you familiar with the term ``multiple use'' 
and what it means in the United States?
    Mr. Phillips. I am familiar with the term. Please proceed, 
and I will see if I understand its application in the United 
States.
    Mrs. Cubin. ``multiple use'' means the public lands can be 
used for multiple purposes and that that is the policy by which 
our public lands are used; we don't think that you necessarily 
need to eliminate one use or another.
    I am going to ask Mr. Barry this next question if can I 
find it. In Wyoming--just a second. I just scribbled all over 
it. Thank you.
    In Wyoming there are Category III locations which your--
there are--two that I am going to speak specifically, of which 
your policy says that mining should be prohibited by law or 
other effective means; and these areas include Como Bluff near 
the town of Medicine Bow and Lance Creek fossil area near the 
town of Lusk. As I am--you know, both of these areas have 
checkerboard ownership patterns with significant amounts of 
private property.
    In the United States, the Constitution provides strong 
protections for private property rights. Why does your policy 
recommend prohibiting mining on private property lands in my 
State?
    Mr. Barry. First of all, it is not my policy. The U.S. 
Government has nothing to do with that statement.
    Mrs. Cubin. I'm sorry?
    Mr. Barry. The U.S. Government has had nothing to do with 
the preparation of that statement that the subject of this 
hearing is all about. So it is certainly not our policy.
    Mrs. Cubin. The United States gives $1.5 million to IUCN. I 
would think that --.
    Mr. Barry. We have had nothing to do with the drafting of 
that policy. Not a single Federal employee was involved with 
the drafting of that policy. It has not been reviewed by us and 
it has not been endorsed by us. I think it is inappropriate to 
refer to it as our policy.
    Mrs. Cubin. So you disagree with it?
    Mr. Barry. I am saying that our policy on mining within 
units of the national park system are directly covered by 
statutes that this Congress has enacted. The Mining in the 
Parks Act, the National Parks System Organic Act, and the 
Redwoods amendment in 1978 are just three examples. That is 
what controls mining in the parks and within units of the 
national park system, like a national monument, but not this 
statement that we have in front of us today.
    Mrs. Cubin. I would like to turn my questioning to Senator 
Wallop.
    You were a member of the United States Senate during a 
period when many international organizations, such as UNESCO, 
were vehemently promoting policies that excoriated the United 
States and democratic traditions like capitalism and the free 
press. In fact, the United States pulled out of UNESCO during 
the mid-1980s partially because of these excesses. Having heard 
the quotes from the document that is before us, does this 
remind you of the very attitude that caused the United States 
to withdraw from UNESCO in the first place?
    Senator Wallop. Madam Chairman, it is the mirror image. 
Notwithstanding Professor Phillip's attempts at explanation of 
it, the quotes which Representative Chenoweth and you have 
cited are all isolated from any other accommodation to the 
benefits of mining. And I would point out, in their 
definitions, mining includes oil and gas exploration and other 
kinds of mineral exploitation.
    So the answer is, yes. Here they come. ``large-scale mines 
displace local communities.'' there is nothing about large-
scale mines providing jobs nor, I might remind Professor 
Phillips that we wouldn't have him in front of us if it were 
not for mining. Neither the television sets nor the computers 
nor the glass screens or anything else that bring him in front 
of us would be possible without mining. These are typical of 
the kinds of inflammatory statements that characterized UNESCO 
during the 1980s and caused the United States to withdraw.
    Mrs. Cubin. I want to go back to Mr. Barry and your adamant 
belief that this policy will have no effect on decisions that 
are made by your department.
    You just told me you totally disavow almost any connection 
with them. So I want to--I am going to make this statement and 
ask you to respond to it if you want to.
    When we look back at the New World Mine, I guess then that 
you would say that it was entirely coincidental that the 
labeling of Yellowstone Park as a World Heritage site in danger 
preceded the President's negotiation to buy out the New World 
Mine project, a promise which was made by the executive branch 
before coming to Congress to seek the dollars to do so.
    You would say that that is all coincidental, and it had 
absolutely no effect on the result of what happened to people 
who owned private property that were not allowed to develop 
that?
    Mr. Barry. First of all, I would have to say that the fact 
that it was a World Heritage site in danger had nothing to do 
with our desire to prevent a potentially significant adverse 
impact on Yellowstone National Park. I should point out that 
one of your own State's Senators, Craig Thomas, supported the 
acquisition of the New World Mine. I am sure he didn't do it 
because he was worried about its impact in the World 
Heritage--.
    Mrs. Cubin. I did not oppose it. The only thing that I 
opposed in the whole process was the way the administration 
went around the block and came in the back door to get their 
policy done. I frankly wasn't really excited about that mine 
being developed up there either. But I feel that it is my job 
to protect the processes which protect the freedoms of the 
people of the United States of America and my State of Wyoming. 
And when the administration manipulates the information to, as 
Senator Wallop said, create hysteria and have attitudes based 
not on fact--I mean, we had scientists working on that EIS for 
years and then the committee came in and in 3 days determined 
what other scientists, American scientists, including some of 
your colleagues, couldn't get done in years. They got it done 
in 3 days and they were certain about it.
    That judgment is what caused the buy-out of that mine. I am 
not opposed to that. I am opposed to the sneaky, underhanded 
way the administration got their agenda fulfilled.
    Mr. Barry. Let me just correct one thing for the record or 
add one thing for the record.
    The people that came to visit the site on behalf of the 
World Heritage Convention did so with the acceptance of--the 
invitation of the company that owned the property. They did not 
trespass on the property. The company allowed them to come on 
the property to take a look at the site.
    Mrs. Cubin. I don't think that anyone implied that they 
trespassed.
    Mr. Barry. No, but I just wanted to correct the record that 
the company itself was willing to let them come to the site and 
to view the site.
    Mrs. Cubin. But the Department of the Interior invited 
them.
    Mrs. Chenoweth-Hage. If the chairman would yield, I don't 
believe that the company invited them in. I think they were 
willing to let them in on the property. But they did not invite 
them in unless we see documentation otherwise.
    Mr. Barry. I didn't mean to create the impression that they 
invited them in. What I did say was that they allowed them on 
the property.
    Mrs. Chenoweth-Hage. But you did say that, sir. You need to 
say what you mean and mean what you say.
    Mrs. Cubin. So does your boss and so do I.
    I would like to thank all of the witnesses for their 
testimony and their time in answering the questions. I thank 
the members of the subcommittee. If they have any additional 
questions for the witnesses, we would ask you to respond to 
these questions in writing, and the record will be held open 
for these responses.
    If there is no further business, the chairman again thanks 
the members of the subcommittee and our witnesses. The 
subcommittee stands adjourned.
    [Whereupon, at 3:43 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

   Committee on Resources, Subcommittee on Energy & Mineral 
          Resources, 1334 Longworth H.O.B., 2:00 p.m.

Thursday, October 28, 1999

                             Agenda

Oversight hearing on: ``The Proposed World Heritage Committee 
Policy Prohibiting Mining in Areas Surrounding World Heritage 
Sites.''

WITNESSES

    Adrian Phillips, Chair [VIA VIDEO CONFERENCE]World 
Commission on Protected Areas (RJCN), Evesham, United Kingdom
    Honorable Don Barry, Assistant Secretary of Interior for 
Fish and Wildlife and Parks U.S. Department of the Interior
    Honorable Malcolm Wallop, Chairman Frontiers of Freedom 
Institute
    General Richard L. Lawson, President National Mining 
Association
                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6727.054

[GRAPHIC] [TIFF OMITTED] T6727.055

[GRAPHIC] [TIFF OMITTED] T6727.056

[GRAPHIC] [TIFF OMITTED] T6727.057

[GRAPHIC] [TIFF OMITTED] T6727.058

[GRAPHIC] [TIFF OMITTED] T6727.059

[GRAPHIC] [TIFF OMITTED] T6727.060

[GRAPHIC] [TIFF OMITTED] T6727.061

[GRAPHIC] [TIFF OMITTED] T6727.062

[GRAPHIC] [TIFF OMITTED] T6727.063

[GRAPHIC] [TIFF OMITTED] T6727.064

[GRAPHIC] [TIFF OMITTED] T6727.065

[GRAPHIC] [TIFF OMITTED] T6727.066

[GRAPHIC] [TIFF OMITTED] T6727.067


</pre></body></html>
